D
E                                                            MINE SAFETY AND HEALTH
D
I                                                            ADMINISTRATION
S
C
U
S
S
I              Office of Inspector General—Office of Audit
O
N

D
R
A
F
T




                                                             MSHA'S OVERSIGHT OF MINE OPERATORS'
                                                             TRAINING PLANS WAS ADEQUATE




                                                                                 Date Issued:   September 28, 2012
02-A12-345-67-890                                                             Report Number:      05-12-003-06-001
U.S. Department of Labor                                    September 2012
Office of Inspector General
Office of Audit                                             MSHA’s Oversight of Mine Operators’ Training
                                                            Plans Was Adequate

BRIEFLY…                                                    WHAT OIG FOUND
Highlights of Report Number 05-12-003-06-001, issued        We found that generally, MSHA timely reviewed,
to the Assistant Secretary for Mine Safety and Health.      approved, and monitored mine operators’ required
                                                            training plans. We also found MSHA’s policies and
WHY READ THE REPORT                                         procedures regarding the review, approval, and
The purpose of the Mine Safety and Health                   monitoring of training plans complied with federal laws
Administration (MSHA) is to prevent death, disease, and     and regulations.
injury from mining and to promote safe and healthful
workplaces for the Nation's miners. To assist in            We reviewed a sample of 163 training plans. MSHA did
achieving this purpose, MSHA reviews, approves, and         not adequately document its review of 4 plans, and 2 of
monitors health and safety training plans as required by    these plans had minor deficiencies not identified by
Section 115A of the Federal Mine Safety and Health Act      MSHA’s review process. We did not, however, consider
of 1977 (Mine Act).                                         the minor deficiencies to be indications of a systemic
                                                            problem with MSHA’s review and approval process. We
Two program areas within MSHA — Coal Mine Safety            found no exceptions in our review of 93 regular safety
and Health and Metal and Nonmetal Mine Safety and           and health inspections.
Health — are responsible for enforcing the Mine Act at
all mining operations in the United States. This includes
reviewing, approving, and monitoring training plans         WHAT OIG RECOMMENDED
submitted by mine operators and contractors.                There were no findings and recommendations as a
                                                            result of this audit. MSHA did not provide a written
WHY OIG CONDUCTED THE AUDIT                                 response to the report.
The Office of Inspector General (OIG) conducted an
audit to determine whether MSHA reviewed, approved,
and monitored mine operators’ training plans as
required.

Our audit work covered training plans reviewed by
MSHA during fiscal years 2010 and 2011.

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2012/05-12-003-
06-001.pdf.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                MSHA’s Oversight of Training Plans Was Adequate
                                    Report No. 05-12-003-06-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 


RESULTS IN BRIEF ....................................................................................................... 2
 


Objective — Did MSHA review, approve, and monitor mine operators' training 

            plans as required? ................................................................................... 2
 

         MSHA's oversight of required mine operators' training plans was 

           adequate. ........................................................................................................ 2
 


Appendices 7 
         Appendix A Background ....................................................................................... 9
 

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 11
 

         Appendix C Acronyms and Abbreviations .......................................................... 15
 

         Appendix D Acknowledgements ......................................................................... 17
 





                                                                 MSHA’s Oversight of Training Plans Was Adequate
                                                                                     Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                MSHA’s Oversight of Training Plans Was Adequate
                                    Report No. 05-12-003-06-001
                                          U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 28, 2012

                        Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary
Mine Safety and Health
1100 Wilson Boulevard
Arlington, Virginia 22209

The purpose of the Mine Safety and Health Administration (MSHA) is to prevent death,
disease, and injury from mining and to promote safe and healthful workplaces for the
Nation's miners. To assist in achieving this purpose, MSHA reviews, approves, and
monitors health and safety training plans as required by Section 115A of the Federal
Mine Safety and Health Act of 1977 (Mine Act).

Two program areas within MSHA — Coal Mine Safety and Health (CMS&H) and Metal
and Nonmetal Mine Safety and Health (MNMS&H) — are responsible for enforcing the
Mine Act at all mining operations in the United States. This includes reviewing,
approving, and monitoring training plans submitted by mine operators and contractors.

The Office of Inspector General (OIG) conducted a performance audit to answer the
following question:

      Did MSHA review, approve, and monitor mine operators’ training plans as
      required?

Our audit work covered training plans reviewed by MSHA during fiscal years (FY) 2010
and 2011. We reviewed federal laws and regulations and MSHA policies and
procedures; interviewed key headquarters, district, and field office officials; and
analyzed and identified key processes and critical decision and control points. We also
reviewed a sample of 163 training plans and 93 regular safety and health (E01)
inspections. We reviewed E01 inspections because both CMS&H and MNMS&H
monitor training plans during those inspections. Our objective, scope, methodology, and
criteria are detailed in Appendix B.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence


                                                MSHA’s Oversight of Training Plans Was Adequate
                                            1                       Report No. 05-12-003-06-001
                                            U.S. Department of Labor – Office of Inspector General



obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.


RESULTS IN BRIEF

We found, generally, that MSHA timely reviewed, approved, and monitored mine
operators’ required training plans. We also found MSHA’s policies and procedures
regarding the review, approval, and monitoring of training plans complied with federal
laws and regulations.

We reviewed a sample of 163 training plans. MSHA did not document its review of 4
plans and 2 of the reviewed plans had minor deficiencies not identified by MSHA’s
review process. We did not, however, consider the minor deficiencies to be indications
of a systemic problem with MSHA’s review and approval process. We found no
exceptions in our review of 93 E01 inspections.

MSHA did not provide a written response to this report.


RESULTS

Objective — Did MSHA review, approve, and monitor mine operators' training
            plans as required?

       MSHA's oversight of required mine operators' training plans was adequate.

We determined that MSHA timely reviewed, approved, and monitored training plans at
the three district offices in our sample. Moreover, we determined that MSHA’s policies
and procedures were consistent among CMS&H and MNMS&H, and in compliance with
applicable federal laws and regulations.

MSHA Effectively Reviewed and Approved Training Plans

Our review of 163 training plans found only 2 with minor deficiencies not identified by
MSHA. In addition, we found 4 other plans for which MSHA did not adequately
document its reviews. These 6 instances had no significant impact and did not indicate
a systemic problem with MSHA’s review and approval process. Specifically:

      1 of 17 training plans from CMS&H District 1 did not identify the number of
       miners employed, as required by Title 30, Code of Federal Regulations (CFR),
       Part 48.3(c)(6). However, this deficiency did not affect the plan’s final approval.
       MSHA acknowledged this deficiency and issued a directive to all staff to review
       and implement MSHA policies and procedures related to miner training and
       training plans.



                                                 MSHA’s Oversight of Training Plans Was Adequate
                                             2                       Report No. 05-12-003-06-001
                                                        U.S. Department of Labor – Office of Inspector General



        1 of 66 training plans from CMS&H District 2 did not identify the location of
         training, as required by 30 CFR, Part 48.3(c)(4). However, this deficiency did not
         affect the plan’s final approval. MSHA acknowledged this deficiency and mailed a
         letter to the operator requiring revisions to the plan, and retrained all employees
         on the procedures to be followed during evaluations of miner training and review
         of training plans.

        4 of 80 training plans from the MNMS&H North Central district did not maintain
         documentation1 of reviews to demonstrate MSHA timely approved or provided
         the mine operator status of the approval, as required by 30 CFR, Parts 46.3(f)
         and 48.3(a)(2).2 These four instances were isolated cases and did not indicate a
         systemic problem because the remaining contained adequate documentation to
         demonstrate timely approval.

MSHA Effectively Monitored Training Plans

Our testing of 93 E01 inspections conducted during FY 2011 revealed that CMS&H and
MNMS&H inspectors reviewed training plans prior to conducting E01 inspections and
reviewed related training documentation while on site at the mines. Additionally,
CMS&H performed periodic reviews of training plans every one to three years.

MSHA Has Resolved Its Backlog of Overdue Mine Plan Reviews

In October 2007, MSHA implemented the "100 Percent Plan" to ensure the agency
completed all mandatory E01 inspections. Consequently, CMS&H district specialists
were asked to contribute toward completing these inspections. This action moved
resources away from conducting training plan reviews, lengthened the review process,
and resulted in a backlog.

An internal MSHA report3 from May 2008 indicated 203 overdue training plan reviews.
To reduce this backlog, CMS&H (1) increased its enforcement personnel by hiring and
training 410 new inspectors; (2) established an electronic uniform mine file, which
provides current and complete information for each mine, to increase the speed at
which mine plans are reviewed; (3) increased the use of the Mine Plan Approval (MPA)
system to allow district managers and headquarters staff to monitor and track mine plan
approval activities; and (4) reassigned district personnel among the district offices to fill
manpower needs where additional staff was needed. As a result, by February 2011, the
backlog of overdue training plan reviews had decreased to only 3. We did not comment

1
  Once a training plan is approved by the district manager, documentation (i.e., review checklist, communication
between MSHA and the operator or contractor, etc.) is no longer maintained.
2
  30 CFR, Part 46.3(f), states, “The EFS Regional Manager must notify the operator…of the approval, or status of the
approval, of the training plan within 30 calendar days of the date MSHA received the training plan…”
30 CFR, Part 48.3(a)(2), states, “Within 60 days after the operator submits the plan for approval, unless extended by
MSHA, the operator shall have an approved plan for the mine.”
3
  MSHA identified a programming error in the MPA system which caused the number of overdue plan reviews to be
overstated. MSHA was working with the Directorate of Program Evaluation and Information Resources to resolve this
error in reporting.

                                                              MSHA’s Oversight of Training Plans Was Adequate
                                                          3                       Report No. 05-12-003-06-001
                                                         U.S. Department of Labor – Office of Inspector General



on the 2008 backlog of training plan reviews because it had been effectively eliminated
by FY2011, and because it was outside our scope period, which included only FYs 2010
and 2011.

Unlike CMS&H, MNMS&H did not experience a backlog of plan reviews as it had
realigned district boundaries and temporarily transferred inspectors between districts to
more efficiently conduct inspections.

MSHA’s Policies and Procedures Complied with Federal Laws and Regulations

MSHA’s policies and procedures for reviewing and approving training plans varied. Five
of the twelve CMS&H districts and all six MNMS&H districts followed the same
procedures. The remaining CMS&H districts created their own internal procedures for
reviewing and approving training plans.

We found that MSHA’s policies and procedures complied with federal laws and
regulations. MSHA was required to (1) review each plan to ensure all information
required by the CFR was provided,4 (2) determine if the plan was satisfactory, and
(3) recommend approval or disapproval by the regional manager for Part 46 plans or the
district manager for Part 48, 75, and 77 plans.

Part 46 Plans

MSHA’s Directorate of Educational Policy and Development (EPD) planned, monitored,
and evaluated all MSHA education and training programs. Within EPD, Educational
Field Services (EFS) reviewed and approved Part 46 training plans in accordance with
the CFR5 and the Education and Training Procedures Handbook (E&T Handbook). The
EFS specialist (1) reviewed the plans to ensure all required information was provided,
(2) determined if the plan was satisfactory or unsatisfactory, and (3) forwarded it to the
EFS regional manager for approval or disapproval. This review and approval period was
typically within 30 days from plan submission.

Part 48, 75, and 77 Plans

MNMS&H district offices relied on EFS to review Part 48 training plans.6 EFS followed
the procedures provided in the CFR7 and the E&T Handbook. The EFS specialist
reviewed each plan to ensure all required information was provided, and made
recommendations to the district manager for approval or disapproval. This review and
approval period was typically within 60 days from plan submission.

Five of twelve CMS&H district offices relied on EFS to review the submission of Part 48,
75, and 77 training plans. EFS followed the procedures outlined in 30 CFR, Parts 48.3,

4
  Required information is set forth in 30 CFR, Parts 46.3, 48.3, 48.23, 75.161, and 77.107-1. 

5
  30 CFR, Part 46.3(b)


6
  Parts 75 and 77 training plans are only applicable to coal mines.


7
  30 CFR, Parts 48.3, 48.23



                                                               MSHA’s Oversight of Training Plans Was Adequate
                                                           4                       Report No. 05-12-003-06-001
                                                      U.S. Department of Labor – Office of Inspector General



48.23, 75.161, 77.107-1, and the E&T Handbook. Further, the EFS specialist
(1) reviewed each plan to ensure that all required information was provided,
(2) determined if the plan addressed mine specific aspects, and (3) recommended
approval or disapproval to the district manager. This review and approval period was
typically 60 days from plan submission.

The remaining seven CMS&H district offices established their own internal standard
operating procedures (SOP) for reviewing and approving Parts 48, 75 and 77 training
plans. These districts utilized specialists and inspectors to review plans for compliance
with 30 CFR, Parts 48.3, 48.23, 75.161 and 77.107-1. The review and approval period
ranged from 10 to 60 days.8

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




8
 Federal regulation and MSHA policy state that an operator must have an approved plan within 60 days of plan
submission.

                                                            MSHA’s Oversight of Training Plans Was Adequate
                                                        5                       Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  MSHA’s Oversight of Training Plans Was Adequate
              6                       Report No. 05-12-003-06-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                    MSHA’s Oversight of Training Plans Was Adequate
                7                       Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  MSHA’s Oversight of Training Plans Was Adequate
              8                       Report No. 05-12-003-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

The purpose of MSHA is to prevent death, disease, and injury from mining and to
promote safe and healthful workplaces for the Nation's miners. To this end, MSHA
reviews, approves, and monitors health and safety training plans as required by Section
115 of the Mine Act and 30 CFR, Parts 46, 48, 75, and 77. Specifically, within 30 CFR:

      Part 46 provides requirements for submitting and obtaining approval of programs
       for training and retraining miners at non-coal surface mines.

      Part 48, Subpart A provides the requirements for submitting and obtaining
       approval of programs for training and retraining miners working in underground
       mines.

      Part 48, Subpart B provides the requirements for submitting and obtaining
       approval for training and retraining miners working at surface mines and surface
       areas of underground mines.

      Parts 75 and 77 only apply to coal mines and provide the requirements for 

       training and retraining certified and qualified individuals.



Within MSHA, EPD plans, monitors, and evaluates all MSHA education and training
programs. Within EPD, EFS (1) provides assistance in the development of training
plans; (2) reviews and approves Part 46 training plans; and (3) reviews Part 48 training
plans (if requested) and forwards them to the districts for approval. During FY 2010,
EFS specialists reviewed 3,244 training plans. In cooperation with the National Mine
Health and Safety Academy, EFS also provides courses to assist mining instructors in
meeting the educational needs of the mining industry, including instructor approval. EFS
staff are located in 24 states and travel extensively to mines and training centers to
provide assistance in customizing individual mine health and safety programs.

Two program areas within MSHA - CMS&H and MNMS&H - headquartered in
Arlington, Virginia, are responsible for enforcing the Mine Act at all mining operations in
the United States. This includes reviewing, approving, and monitoring training plans
submitted by mine operators and contractors. CMS&H consists of 12 districts with 45
field offices located throughout the United States. MNMS&H consists of 6 districts with
47 field offices and field duty stations located throughout the United States and Puerto
Rico.




                                                 MSHA’s Oversight of Training Plans Was Adequate
                                             9                       Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   MSHA’s Oversight of Training Plans Was Adequate
              10                       Report No. 05-12-003-06-001
                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

We performed audit work to answer the following question:

     Did MSHA review, approve, and monitor mine operators’ training plans as required?

Scope

Our audit included reviews of training plans9 for compliance with 30 CFR, Parts 46.3,
48.3, 48.23, 75.161 and 77.107-1 submitted by mine operators, contractors, and
cooperatives, and reviewed by MSHA during FYs 2010 and 2011; and MSHA policies
and procedures effective during FYs 2010 and 2011.

Our audit universe consisted of 5,422 training plans MSHA reviewed during FYs 2010
and 2011. Of the 5,422 training plans, we selected a random statistical sample of 361
and tested 163 to determine if MSHA timely reviewed, approved, and monitored them.
Because we did not identify any significant issues in the first 163 training plans in our
sample, we did not test the remaining 198.

We conducted our fieldwork at MSHA headquarters in Arlington, VA, the CMS&H district
office located in Mt. Pleasant, PA (District 2), and the MNMS&H district office located in
Duluth, MN (North Central District). We also tested files from the CMS&H district office
located in Wilkes-Barre, PA (District 1).

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

We obtained an understanding of MSHA’s process for reviewing, approving, and
monitoring training plans. To answer our audit objective, we (1) reviewed MSHA policies
and procedures related to training plans to determine if they were consistent and in
compliance with federal laws and regulations; (2) interviewed key MSHA headquarters,
district, and field office officials; (3) determined if MSHA adequately and timely reviewed
a sample of 163 training plans submitted and reviewed during FYs 2010 and 2011; and
(4) determined if MSHA adequately monitored 93 training plans during E01 inspections
conducted in FY 2011.
9
  Unless otherwise specified, the term training plan includes all base plans, addendums, superseded and withdrawn
plans.

                                                             MSHA’s Oversight of Training Plans Was Adequate
                                                        11                       Report No. 05-12-003-06-001
                                                         U.S. Department of Labor – Office of Inspector General




Data Reliability

To determine reliability of MSHA’s training plan data, we used an approach consistent
with the Government Accountability Office’s Assessing the Reliability of Computer-
Processed Data (GAO-09-680G, July 2009, External Version I). The purpose of the data
was to obtain a universe of training plans.10

CMS&H provided data from the MPA system which consisted of 3,910 Part 48, 75 and
77 training plans reviewed during FYs 2010 and 2011.

MNMS&H and EFS provided data from the EFS Time and Activity system which
consisted of 1,512 Part 46 and 48 training plans reviewed during FYs 2010 and 2011. In
total, our universe consisted of 5,422 training plans.

Sampling

We used a two-stage, stratified cluster sampling approach. In the first stage, we
classified all twelve CMS&H district offices into two strata based on (1) the average
number of mines during FYs 2010 and 2011, (2) the number of training plans received
during FYs 2010 and 2011, (3) the number of violations issued during FYs 2010 and
2011, and (4) the number of overdue training plan reviews as of September 14, 2011.
Stratum 1 consisted of eight CMS&H district offices and stratum 2 consisted of four
CMS&H district offices. We randomly selected two CMS&H district offices from each
stratum, totaling four CMS&H district offices. Since there are only six MNMS&H district
offices, we did not use stratification to select our sample; instead, we randomly selected
three MNMS&H district offices.

In the second stage, we selected a random statistical sample of training plans from
each of the seven district offices in our sample. The table below shows our sample of
361 training plans by district.

                                                  Audit Sample
                                                                            Sample of Training
                      MSHA District                 Universe Size
                                                                                 Plans
               CMS&H District 1                            97                      17
               CMS&H District 2                           371                      66
               CMS&H District 4                           406                      72
               CMS&H District 11                          160                      29
               MNMS&H North Central                       220                      80
               MNMS&H Northeast                            71                      26
               MNMS&H Western                             195                      71
               Total                                      1520                    361


10
     We did not perform testing to determine if all mines submitted or had an MSHA approved plan in place.

                                                                MSHA’s Oversight of Training Plans Was Adequate
                                                           12                       Report No. 05-12-003-06-001
                                                           U.S. Department of Labor – Office of Inspector General



Testing

We reviewed the sample of 163 training plans from CMS&H Districts 1 and 2, and
MNMS&H North Central District. We found few issues, none of which had a significant
impact. Further, we found MSHA’s policies and procedures complied with federal laws
and regulations. Given our preliminary results, we decided to end our testing at that
point. Therefore, we made no projections to the universe.

MSHA Policies and Procedures

We reviewed MSHA policies and procedures, which included CMS&H internal SOPs
related to training plans, to determine if they were consistent and in compliance with
federal laws and regulations.

Federal Regulations

For our sample of 163 training plans submitted during FYs 2010 and 2011, we verified if
CMS&H and EFS reviewed each training plan to ensure it complied with the following
federal requirements: (1) a general description of the teaching methods and the course
materials to be used during training, including subject areas to be covered, approximate
time or range of time to be spent on each subject area, and location where training will
be given for each course; (2) a list of the persons and/or organizations who will provide
the training; (3) the approximate number of miners employed at the mine; and (4) the
evaluation procedures used to determine the effectiveness of training.11 In addition, we
identified how CMS&H and EFS documented their review of training plans
(i.e., transmittal/routing sheet, review checklist/guideline, etc.).

Timeliness

To determine if MSHA timely approved training plans, we reviewed a sample of 163
training plans submitted during FYs 2010 and 2011. For each training plan, we
calculated the number of days it took for CMS&H and EFS to approve or disapprove the
plan. We used the date the training plan was initially received and the date of the signed
approval or disapproval letter for our calculations.

Monitoring

To evaluate if CMS&H and MNMS&H inspectors consistently reviewed training plans
during E01 inspections, we reviewed a sample of 93 E01 inspections conducted during
FY 2011. We requested the last completed E01 inspection conducted during FY 2011 at
the mine where the training plan was implemented. The number of E01 inspections
reviewed did not match the number of training plans in our sample (163 training plans)
for the following reasons: (1) several mines had multiple training plans in place; and


11
     We used 30 CFR, Parts 46.3, 48.3 and 48.23 criteria for our testing.

                                                                 MSHA’s Oversight of Training Plans Was Adequate
                                                            13                       Report No. 05-12-003-06-001
                                                       U.S. Department of Labor – Office of Inspector General



(2) many training plans from the MNMS&H North Central District were submitted by
contractors and cooperatives who were not required by law to have E01 inspections.

For each inspection, we analyzed how CMS&H and MNMS&H inspectors documented
their review of the training plan prior to inspection, and the training plan and training
certificates at the mine site. Specifically, we reviewed the following documentation:
inspection notes, the Mine Activity Data form (MSHA Form 2000-22), and the Regular
Inspection Information form (MSHA Form 4000-49A and MSHA Form 4000-49B).

In addition, each CMS&H district office created a “review rule” in the MPA system to
determine the frequency of reviews of approved training plans.12 Depending on the type
of training plan, the MPA system calculates the date the review is due. These periodic
reviews were performed every one to three years. We obtained periodic review reports
from CMS&H Districts 1 and 2 for reviews scheduled during FYs 2011 through 2014
and identified the dates of these reviews.

Internal Controls

In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objective by obtaining an understanding of those controls, and
assessing control risk for the purposes of achieving our objective. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of MSHA’s
internal controls relevant to our audit objective would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

Criteria

          Federal Mine Safety and Health Act of 1977, Section 115
          30 CFR, Parts 46.3, 48.3, 48.23, 75.161 and 77.107-1
          General Accounting Office, Standards for Internal Control in the Federal 

           Government, November 1999 

          MSHA Program Policy Manual, Volume III, April 2006
          MSHA Education and Training Procedures Handbook, November 2003
          General Coal Mine Inspection Procedures and Inspection Tracking System,
           January 1, 2008
          Uniform Mine File Procedures Handbook, July 2009
          Metal and Nonmetal General Inspection Procedures Handbook, October 2009




12
     MNMS&H only reviews training plans during E01 inspections.

                                                              MSHA’s Oversight of Training Plans Was Adequate
                                                         14                       Report No. 05-12-003-06-001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations

CFR                          Code of Federal Regulations

CMS&H                        Coal Mine Safety and Health

E&T Handbook                 Education and Training Procedures Handbook

EFS                          Educational Field Services

EPD                          Educational Policy and Development

FY                           Fiscal Year

Mine Act                     Federal Mine Safety and Health Act of 1977

MNMS&H                       Metal and Nonmetal Mine Safety and Health

MPA                          Mine Plan Approval

MSHA                         Mine Safety and Health Administration

OIG                          Office of Inspector General

SOP                          Standard Operating Procedure




                                           MSHA’s Oversight of Training Plans Was Adequate
                                      15                       Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   MSHA’s Oversight of Training Plans Was Adequate
              16                       Report No. 05-12-003-06-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix D
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), Robert
Swedberg (Audit Manager), Kathleen Mitomi, Sheila Lay, Cassie Galang, Carmelle
Paytes, Ajit Buttar, and Christine Allen.




                                               MSHA’s Oversight of Training Plans Was Adequate
                                          17                       Report No. 05-12-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   MSHA’s Oversight of Training Plans Was Adequate
              18                       Report No. 05-12-003-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

       Online:   http://www.oig.dol.gov/hotlineform.htm
       Email:    hotline@oig.dol.gov

       Telephone:     1-800-347-3756 

                202-693-6999           


       Fax:      202-693-7020

       Address: Office of Inspector General
                U.S. Department of Labor
                200 Constitution Avenue, N.W.
                Room S-5506
                Washington, D.C. 20210
